<html>
<title> - 2015 PARIS INTERNATIONAL CLIMATE NEGOTIATIONS: EXAMINING THE ECONOMIC AND ENVIRONMENTAL IMPACTS</title>
<body><pre>[Senate Hearing 114-819]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-819

 2015 PARIS INTERNATIONAL CLIMATE NEGOTIATIONS: EXAMINING THE ECONOMIC 
                       AND ENVIRONMENTAL IMPACTS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON MULTILATERAL
                INTERNATIONAL DEVELOPMENT, MULTILATERAL
               INSTITUTIONS, AND INTERNATIONAL ECONOMIC,
                    ENERGY, AND ENVIRONMENTAL POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: https://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-994 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

           SUBCOMMITTEE ON MULTILATERAL INTERNATIONAL        
            DEVELOPMENT, MULTILATERAL INSTITUTIONS,        
            AND INTERNATIONAL ECONOMIC, ENERGY, AND        
                      ENVIRONMENTAL POLICY        

                JOHN BARRASSO, Wyoming, Chairman        

DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JAMES E. RISCH, Idaho                BARBARA BOXER, California
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               EDWARD J. MARKEY, Massachusetts

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. John Barrasso, U.S. Senator From Wyoming....................     1
Hon. Tom Udall, U.S. Senator From New Mexico.....................     3
Todd D. Stern, Special Envoy for Climate Change, U.S. Department 
  of State, Washington, DC.......................................     5
    Prepared Statement...........................................     6

              Additional Material Submitted for the Record

Written Statement of Senator James M. Inhofe, Chairman, U.S. 
  Senate
  Environment and Public Works Committee.........................    32
Responses of Todd Stern to Questions Submitted by Senator Rand 
  Paul...........................................................    34

                                 (iii)

  

 
 2015 PARIS INTERNATIONAL CLIMATE NEGOTIATIONS: EXAMINING THE ECONOMIC 
                       AND ENVIRONMENTAL IMPACTS

                              ----------                              


                       TUESDAY, OCTOBER 20, 2015

        U.S. Senate, Subcommittee on Multilateral 
            International Development, Multilateral 
            Institutions, and International Economic, 
            Energy, and Environmental Policy, Committee on 
            Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the subcommittee) presiding.
    Present: Senators Barrasso, Gardner, Udall, Boxer, Markey, 
Murphy, Kaine, and Coons.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Good afternoon. I would like to call this 
hearing to order, the Senate Foreign Relations Subcommittee on 
Multilateral International Development, Multilateral 
Institutions, and International Economic, Energy, and 
Environmental Policy. It may be the longest named subcommittee 
in the history of the Senate. [Laughter.]
    Senator Barrasso. I would also like to welcome our ranking 
member, Senator Udall, and our guests today.
    Today we are examining the objectives and the intentions of 
the administration's international climate negotiations in 
Paris, as well as the potential ramifications for the United 
States.
    The International Climate Change Conference will take place 
from November 30 to December 11 in Paris this year. With this 
event happening in a matter of little more than a month, I 
think it is important that we examine what the administration 
plans to accomplish in Paris.
    So I am so pleased to welcome our witness from the State 
Department, Mr. Todd Stern. He is the United States Special 
Envoy for Climate Change and will be the lead negotiator for 
the Paris Climate Change Conference. He has a unique 
perspective as to what it is that this administration is 
negotiating for in any climate change deal and what any final 
deal may look like. So, Mr. Stern, thank you very much for 
being with us today.
    While I support international dialogue on global 
environmental problems, I do have serious concerns about the 
impact any deal reached in Paris will have on the American 
economy, on our international priorities, and on our 
environmental goals.
    I am hearing from my constituents back home about their 
concerns. They are concerned that the pledges that the 
President is committing the United States to will strengthen 
foreign economies at the expense of American workers and will 
line the pockets of developing nations with millions of 
American taxpayer dollars. All this is being proposed at a time 
of scarce resources which are needed to strengthen our economy, 
to fend off threats to our Nation's security, and to address 
humanitarian crises abroad.
    Whatever deal is reached in the back rooms of the Paris 
Climate Change Conference, it has been telegraphed by this 
administration that the deal will be a calculated end run 
around Congress. Just like the Kyoto Protocol and the United 
Nations Framework Convention on Climate Change, any agreement 
that commits our Nation to targets or timetables must go 
through the process established by the Founders of our 
Constitution. It must be submitted to the United States Senate 
for its advice and consent.
    The President has made clear that he does not see it that 
way, as was the case with the Iranian nuclear deal. For that 
reason, we need to send a message to the nations that are 
partners with the President in any final deal that beyond a 
shadow of a doubt, the Senate will not stand by any agreement 
that binds the American people to targets or timetables on 
emissions without our advice and consent.
    The President's joint announcement with China has sent a 
loud and clear signal that a Paris deal could be an economic 
and environmental loser for the American people. In November 
2014, President Obama and the president of China made a joint 
announcement on targets to reduce net greenhouse gas emissions. 
President Obama pledged to reduce U.S. net greenhouse gases by 
26 to 28 percent by 2025. China agreed to peak its carbon 
dioxide emissions in 2030. This agreement forces Americans to 
drastically decrease our emissions immediately while China will 
be allowed to let their emissions continue to rise for the next 
15 years.
    According to the Congressional Research Service, China has 
been the highest emitter of greenhouse gases across the globe 
since around 2007. Currently China emits 23 percent of net 
greenhouse gases worldwide while our Nation's share has 
declined to only 13 percent. This is a terrible deal for 
Americans, but it is a great deal for the Chinese Government 
and the Chinese economy.
    Now, I also want to address my concerns about the 
administration's $3 billion pledge to the Green Climate Fund. 
The American public does not support paying their hard-earned 
taxpayer dollars into a slush fund that spends billions on 
international climate change programs in developing nations to 
address the impacts of extreme weather. The need for spending 
on natural disasters is down historically while other 
international priorities have increased.
    According to the 2014 Annual Global Climate and Catastrophe 
Report, released Aon Benfield, quote, ``global natural 
disasters in 2014 combined to cause economic losses of $132 
billion, 37 percent below''--37 percent below--``the 10-year 
average of $211 billion.''
    With immediate global priorities such as the upheaval in 
the Middle East in Syria and Iraq to a resurgent Russia in 
Eastern Europe and abroad, we should be focusing our resources 
on countering global terrorist threats, on humanitarian 
assistance, on democracy promotion, and on embassy security 
measures.
    The only reason I can see the administration wants to 
provide this funding is if there would be no deal without this 
wealth transfer to developing nations. Despite talk of American 
leadership bringing everyone the table to save the planet, it 
is apparently American taxpayer cash that will pay off 
developing nations to act.
    American taxpayer cash is the only green that the 
international bureaucrats in Paris seem to care about, and it 
is the only green that will result from any climate change 
agreement because after all is said and done, this deal will 
not achieve the environmental gains that have been promised or 
will be promised. In fact, the environment will be in worse 
shape. Nations like China that are the main emitters 
internationally are getting a pass on having to take any shared 
economic pain. If China does not play a major role and 
contributes significantly, all that will result environmentally 
from Paris is hot air from bureaucrats and politicians, 
overpromising and underdelivering in front of the cameras. 
There will be no temperature reductions. Meanwhile, 
international priorities will go underfunded.
    So I have serious concerns about what will occur in Paris 
and ask that the members of this committee consider these 
concerns as we approach the Climate Change Conference.
    I would like to now turn to Ranking Member Senator Udall to 
offer his opening remarks.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Chairman Barrasso, thank you very much 
today. And I think you are right. It is very appropriate for us 
to have this hearing at this point.
    And thank you, Mr. Stern, for appearing before our 
subcommittee today.
    We face an urgent task in Paris to bring the international 
community together, to chart a more sustainable future for our 
children and our grandchildren. NASA estimates that 2015 is 93 
percent likely to be the warmest year on record, and the 
current record holder last year, 2014.
    Global warming is one of our greatest challenges. It 
requires a global effort through a comprehensive international 
agreement. That is the only way we can truly tackle this 
problem. It is an environmental challenge. It is an energy 
challenge. It is a public health challenge. And it is a 
national security challenge. It is a challenge to preserve our 
planet. And no one, no country is immune from that challenge or 
can meet that challenge alone.
    For years, the global community has looked for answers to 
the problem. We have gone through various international 
agreements and protocols. Sadly, the United States has often 
failed to lead on this in the past.
    But today I am more optimistic. I am optimistic even with 
the tremendous political challenges here in Congress. I have 
led the charge in our Appropriations Committee to fight against 
dangerous environmental riders. Those riders would do great 
damage to our efforts in Paris. I will continue to fight them, 
and I am sure that they will fail.
    And with increased U.S. leadership over the last 5 years, 
we have made great international progress. We have been working 
on an agreement that will be applicable to all. That is what we 
need, an agreement that is comprehensive, that is fair, and 
that ensures every country does its fair share on climate 
change. The Paris agreement takes us in the right direction, 
signing up countries developed and developing to halt the 
climate crisis. The United States must lead and set an example 
for other countries. This is the right thing to do to protect 
our economy in the long term.
    More importantly, it is the essential thing to do for 
future generations. Over 150 countries will be part of the 
Paris agreement. Each country is setting out how they will 
tackle the problem on their own terms. This is encouraging and 
it is an important change from the past. The largest emitters 
in the developing world, China and India, are making serious 
commitments. Opponents of U.S. climate action have argued that 
other nations, especially China, would never act to limit their 
emissions. Well, now they are. This is critical to ensure we 
act globally and fight climate pollution that leads to 
catastrophic climate change.
    Another sign of progress, the world's largest oil and gas 
companies are supporting a climate agreement. BP, Shell, and 
the massive state oil companies of Saudi Arabia and Mexico are 
among the 10 major oil companies making commitments.
    The United States can help lead this effort not only at the 
negotiating table in Paris but on the front lines in New Mexico 
and Florida and Alaska and every State. We can create clean 
energy jobs. We can put energy independence and climate 
stability at the forefront.
    My State of New Mexico will benefit greatly from this 
agreement. New Mexico is at the bull's eye for climate change, 
with historic drought and other harsh impacts. But we are also 
leading in new and innovative ways for renewable energy and 
breakthrough technologies. There are currently more than 98 
solar companies in New Mexico employing 1,600 people. There are 
now more solar jobs in the United States than coal jobs. 
Renewable energy jobs and solutions are in abundance in New 
Mexico, and this is true for many other States.
    Support for renewable energy is strong. Nearly half of the 
U.S. Senate supported my amendment in January for a renewable 
electricity standard that would have mandated 25 percent of our 
energy come from renewable resources by 2025.
    So while each State faces unique climate impacts and 
challenges, each State has unique strengths and solutions to 
contribute. Together we can tackle this challenge as a unified 
country, and so we can lead the global community as we confront 
this challenge as a unified planet. Together we can find a path 
forward that works. The Paris agreement represents a historic 
opportunity to build a global effort to address climate change. 
It is an opportunity and an obligation and one that history 
will show was the right thing to do.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you so very much, Senator Udall.
    And I would also, without objection, like to submit for the 
record a statement from Senator Inhofe, who is not a member of 
this subcommittee.

[Editor's note.--The statement mentioned above can be found in 
the ``Additional Material Submitted for the Record'' section at 
the end of this hearing.]

    Senator Barrasso. Once again, I would like to thank the 
Special Envoy on Climate Change, Todd Stern, for joining us 
today. Your full statement will be entered into the record. And 
I would ask you to summarize it in about 5 minutes in order for 
the members to have an opportunity to ask questions. With that, 
we turn to you, Mr. Stern. Thank you.

 STATEMENT OF TODD D. STERN, SPECIAL ENVOY FOR CLIMATE CHANGE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Stern. Thank you very much, Mr. Chairman. I am pleased 
to be here and appreciate the opportunity to testify before 
your subcommittee.
    Today I want to explain the approach we have taken to the 
international climate change negotiations over the last number 
of years and what we hope to accomplish in Paris.
    The Obama administration came into office convinced that we 
had to take bold action to tackle climate change, but we also 
knew that a fundamental reframing of our approach to 
international climate negotiations would be needed. We absorbed 
the hard lessons of Kyoto and heeded concerns. We concluded 
that targets should be set by countries themselves, not imposed 
on them; that all countries should not be expected to act, 
recognizing that developing countries face unique challenges; 
and that we should expect strong transparency and 
accountability from all countries. That is the deal we have 
been fighting for.
    The President and Secretary Kerry have worked hard on 
building international support for this approach, working with 
leaders from China to Brazil to India, from African countries, 
and small island states that are facing clear and present 
threats from a changing climate.
    In particular, the historic joint announcement last year 
between President Obama and President Xi, supplemented by their 
recent joint statement, marked a new era of climate diplomacy. 
We now live in a near reality where China has pledged to peak 
its emissions, to bring on line an average of a gigawatt of 
clean energy every week from now until 2030, to implement a 
national cap and trade plan, and to provide $3.1 billion in 
climate finance, and where more than 150 countries have 
announced their own targets and plans to address climate 
change. U.S. leadership has been at the heart of this progress.
    Most fundamentally, we have leveled the playing field by 
leading on a structure and process that has led to those 150-
plus submissions, including some 110 from developing countries. 
This by itself is a testament to the buy-in of countries around 
the world and a demonstration that the old, rigid bifurcation 
between developed and developing countries is changing.
    In particular, we proposed the structure of nationally 
determined mitigation contributions. To ensure maximum 
participation, we needed to reassure countries that they could 
join the agreement without disrupting their economic and 
development priorities. We proposed that parties submit their 
targets early rather than at the end of Paris because such 
exposure would push all to do their best, and the result has 
been a drum beat of submissions. We have pushed for the idea of 
successive rounds of targets, coupled with longer term goals 
for greater ambition. We have pressed for an approach that 
continues to recognize that developing countries have unique 
challenges but asks all countries to take action to address 
this global challenge.
    We are leading proponents of a robust transparency system 
of reporting and review, with flexibility for those who need it 
based on their capacity.
    And we have backed nonlegally binding targets as the best 
way to ensure broad participation since many countries would be 
unwilling to accept binding targets, and we are unwilling to 
have a structure based on Kyoto. And we are convinced as well 
that this approach will bolster rather than undermine ambition.
    An agreement like this, if I may say, is exactly what 
voices from both sides of the aisle have been calling for, for 
a long time.
    A strong Paris agreement of this kind is in the interests 
of the United States. It is in our economic interests because 
the costs of inaction, properly accounted for, will dwarf the 
costs of acting and because no one is better positioned than 
the United States to win big in a multi-trillion-dollar 21st 
century market for low carbon energy innovation.
    It is in our diplomatic interest because climate change is 
a high and rising priority for countries all over the world, 
and it is untenable for the United States to stand apart.
    It is in our national security interests because unchecked 
climate change threatens global disruptions. Admiral Samuel 
Locklear, then Commander of Pacific Command in 2013, said 
upheaval related to climate change, ``is probably the most 
likely thing that is going to happen, that will cripple the 
security environment probably more likely than the other 
scenarios we all often talk about.''
    Mr. Chairman, the climate deal is far from done, but we 
will strive to produce a strong, solid outcome.
    I will be happy to take your questions.
    [The prepared statement of Mr. Stern follows:]

                  Prepared Statement of Todd D. Stern

    Mr. Chairman, I am pleased to be here and appreciate the 
opportunity to testify before your subcommittee.
    I look forward to discussing the issues on today's agenda with you 
and your colleagues on the subcommittee. I thought it might be useful 
at the outset for me to explain the approach we have taken to the 
international climate change negotiations over the last number of years 
and to explain what we hope to accomplish in the Paris conference in 
December.
    The Obama administration came into office convinced that we had to 
take bold, concerted action to tackle the very real threat of climate 
change. But we also saw that we needed a new approach. We took a hard 
look at the lessons of Kyoto and listened to what both sides of the 
aisle had been saying for years about what an international climate 
agreement ought to look like. Targets should be set by countries 
themselves bottom-up, not imposed top-down. Developing countries need 
to act just as we do, recognizing that they face unique challenges. 
Strong transparency provisions are needed with the same basic terms for 
the U.S. and emerging markets like China. And that is exactly the deal 
we have been fighting for.
    If we secure a deal with these features, it is because we took to 
heart bipartisan feedback on earlier attempts to forge international 
climate agreements. And that is also why the President and Secretary 
Kerry have worked hard on building international support for this new 
approach, working with leaders from China to Brazil to India; from 
African countries and small island states that are facing clear and 
present threats from a changing climate. To demonstrate that we are 
committed to act, together with others. We now live in a new reality 
where China has pledged to peak its emissions, to bring online an 
average of a gigawatt of clean energy every week through 2030, to 
implement a national cap-and-trade plan, and to provide $3.1 billion in 
climate finance. And where nearly 150 countries have announced their 
own targets. We still have a considerable way to go to land a strong, 
viable climate agreement in Paris, but we are closer than we ever have 
been, and U.S. leadership has been at the heart of this progress.
    Because the agreement we wanted was radically different from the 
one the U.N. process had produced in Kyoto, we knew that a fundamental 
reframing of the developed versus developing country paradigm would be 
needed. And we decided to go to the heart of that problem by engaging 
directly with China. For almost 20 years, the United States and China 
had been seen almost as captains of opposing teams in the negotiations. 
It was an unproductive situation that helped produce deadlock.
    We started engaging with China on climate change in a concerted 
manner from the start of this administration, building relationships, 
working with them. Secretary Clinton highlighted climate change on her 
first trip there in February, 2009. We intensified this effort in 2013 
with Secretary Kerry's visit in April of that year, establishing the 
U.S.-China Climate Change Working Group, and with President Obama's 
first meeting with President Xi, in Sunnylands. Then, last year, we 
sought to move our interaction to a whole new level. We found that 
their leadership was ready to work with us, genuinely concerned about 
the impacts of climate change as well as air pollution, and open to a 
cooperative approach based on mutual confidence that each side was 
serious about curbing emissions. This led, of course, to the historic 
Joint Announcement last year between President Obama and President Xi, 
in which the United States and China each set forth ambitious climate 
targets and marked the beginning of a new era of climate diplomacy.
    We followed that up just a few weeks ago during President Xi's 
State Visit with a Joint Presidential Statement on Climate Change that 
laid out a common vision for the Paris Agreement, and also showed how 
serious both countries are about taking concrete action here and now.
    These steps have given the global climate talks a jolt of momentum 
and have led Parties around the world to believe that these 
negotiations could and should succeed.
    Most fundamentally, we have leveled the playing field by leading on 
a structure and process for the agreement in which more than 150 
countries, including over 100 developing countries, have put forward 
their targets, known as INDCs (``intended nationally determined 
contributions''). This, by itself, is an extraordinary fact. It is 
testament to the buy-in of countries around the world, and a 
demonstration that the old fire-wall between developed and developing 
countries is coming down.
    In particular:
    We proposed the structure of nationally determined mitigation 
contributions, around which Parties have largely converged. Our 
rationale was simple: if all Parties are to be genuinely part of the 
new agreement, you cannot negotiate top-down targets as was done in 
Kyoto. To ensure maximum participation, we needed a structure that 
would allow countries to make their own choices about what target to 
adopt, reassuring them that they could join the agreement without 
disrupting their economic and development priorities.
    We proposed that Parties submit their INDCs early rather than at 
the end in Paris, because we thought this exposure to scrutiny would 
push countries to do their best. And the result has been a momentum-
building drumbeat of submissions.
    We have pushed for the idea of successive rounds of targets, 
coupled with longer term goals for greater ambition.
    We have pressed for an approach recognizing that developing 
countries continue to have unique challenges, but asks all countries to 
put forward actions to address this global challenge.
    We are leading proponents of a robust transparency system of 
reporting and review for all, with a single set of guidelines, but 
flexibility in terms of the frequency and content of reporting, for 
those developing countries that need it based on their capacity.
    We have strongly backed the notion of nonlegally binding targets as 
the best way to ensure broad participation in the agreement. We 
concluded early on that many countries would be unwilling to put 
forward legally binding targets and, as noted, we are not willing to 
accept the Kyoto approach of binding targets for developed countries 
only. Also--contrary to much conventional wisdom--we think that 
nonbinding targets will produce greater ambition because many countries 
would low-ball legally binding commitments out of fear for the 
consequences of missing their targets.
    We have strongly supported the broad-based effort to elevate the 
importance of building resilience against the impacts of climate 
change, worldwide.
    And we have advocated for a system of post-2020 support based on a 
shared effort among all countries to drive larger flows of climate 
friendly finance to those in need through the use of public and private 
finance, domestic resources, enhanced investment environments in 
recipient countries, and improved transparency regarding the provision, 
mobilization, and use of funds.
    We are seeking an agreement, in brief, that is universal, 
ambitious, transparent, durable and effective; one that will elevate 
adaptation and resilience; be differentiated in a manner suitable for 
the 2020s and beyond; and promote shared efforts to generate increasing 
flows of climate-friendly capital from all sources to countries around 
the world that need it. It is exactly the kind of accord that voices 
from both sides of the aisle have said we need.
    An agreement like this in Paris would not solve climate change by 
itself, but it would be an important step forward. Of course, a great 
deal of the effort to combat climate change will be driven by national 
governments, subnational actors, enterprising businesses, innovative 
scientists and engineers, and an enlightened global public demanding 
that its leaders take heed and take action. But we need a strong 
international agreement to supply the essential confidence countries 
need that, if they act, their partners and competitors will do so as 
well; and to send a clear signal to governments, civil society, and the 
private sector that the world's leaders have finally decided to take 
action and are not turning back.
    A strong Paris Agreement of this kind is in the economic, 
diplomatic and national security interests of the United States and the 
American people.
    It is in our economic interests because the costs of inaction, 
properly accounted for, will dwarf the costs of acting, and because no 
one is better positioned to win big in the multitrillion dollar 21st 
century market for low-carbon energy innovation than the United States.
    It is in our diplomatic interest because climate change is a high 
and rising priority in countries and regions all over the world, and it 
is untenable for the United States to stand apart.
    It would be in our national security interests because threats of 
rising sea levels, droughts, floods and other extreme events have 
become all too real, and will get worse. However, if we act now and act 
globally we can limit the extent and severity of the impacts. This is 
not a matter of ideology; it is a matter of sober risk management. Our 
military and intelligence leaders have been sounding the alarm now for 
years. In March 2013, Admiral Samuel Locklear, then Commander of the 
Pacific Command, said that upheaval related to climate change ``is 
probably the most likely thing that is going to happen . . . that will 
cripple the security environment, probably more likely than the other 
scenarios we all often talk about.''
    So the time has come to act. The stars are more aligned for an 
ambitious climate agreement this year than they ever have been. The 
deal is far from done, but we will strive during the next 7\1/2\ weeks 
to produce a strong outcome that will constitute a major step in 
combating climate change. I will be happy to take your questions.

    Senator Barrasso. Well, thank you so much for joining us 
today. Thank you so much for your succinct summary of your 
statement. And I would like to start with the questioning, and 
then we will go with, I think, 7-minute rounds. There is plenty 
of time for everyone to ask questions.
    On August 26 of this past year, the ``New York Times had a 
story entitled Obama Pursuing Climate Accord in Lieu of 
Treaty.'' The article states, ``the Obama administration is 
working to forge a sweeping international climate change 
agreement to compel nations to cut their planet-warming fossil 
fuel emissions but without ratification from Congress.'' It 
also talks about the administration working on a, ``politically 
binding deal to cut emissions rather than a legally binding 
treaty that would require approval by two-thirds of the 
Senate.''
    In addition, the French Foreign Minister Fabius recently 
indicated that to be successful in Paris, as he said, we must 
find a formula which is valuable for everybody and valuable for 
the United States without going to Congress.
    Will any Paris agreement be legally binding on the United 
States?
    Mr. Stern. Mr. Chairman, the negotiations are obviously 
still underway, and what elements of the Paris agreement will, 
or will not, be binding is not something that is worked out 
yet. There are, I would say, different views from many 
different parties. If you were to look at the draft text, which 
is being discussed now, you would see in provision after 
provision brackets that indicate the language which signifies 
legally binding and also language which signifies not legally 
binding. So the short answer is we do not know, although I will 
say, just as I said in my testimony, that a core part of our 
own approach is that the targets countries are undertaking 
should not be legally binding.
    Senator Barrasso. But some parts would be legally binding.
    You know, I wonder if you think that it serves the interest 
of this country to establish a precedent that international 
commitments are made in a manner designed to torque the 
constitutionally derived oversight role of Congress, of the 
United States Senate.
    Mr. Stern. Well, and I would not think that would serve the 
interest of the country, Mr. Chairman. We are going to look at 
the agreement, once we have an agreement, and we will evaluate 
at that time and we will act fully in accordance with law. As 
you know, there are different procedures by which the United 
States has historically and continues to join international 
agreements. So we will act fully in accordance with law. We do 
not know yet what the agreement is going to say.
    Senator Barrasso. So does the administration plan to submit 
any climate change agreement produced in Paris to the Senate 
for its advice and consent?
    Mr. Stern. Mr. Chairman, we do not know yet what the 
elements of the agreement are going to be. So it is hard to 
speculate at this time. As I said, we are trying to--we are 
pushing hard for an agreement that does not include binding 
targets, which are kind of the heart of the agreement. So we 
are looking for something that is not binding in that regard.
    Senator Barrasso. So this is something that is not legally 
binding. If there are parts that are legally binding, would you 
submit that part?
    Mr. Stern. Senator, it depends entirely on--it depends 
actually on a lot of factors of the content, and what 
provisions are and are not binding is one those issues. 
Existing U.S. law is another issue. Other authorities and 
relevant past practice are all issues. So we will evaluate this 
at such time as we have an agreement, and then we will act, as 
I say, according to law.
    Senator Barrasso. Because that gets into the issue of 
future administrations or Congresses will be bound by such a 
commitment. I wonder if the President signs a unilateral 
political commitment or agreement in Paris at the end of the 
year without consulting Congress, what effect the agreement 
would have domestically and whether it actually holds up long 
term.
    Mr. Stern. Well, I would say two things, Mr. Chairman. 
Certainly there is no question that Congress should be 
consulted. We have been up here briefing different members and 
staff all during this year and certainly will continue that 
before and after the Paris negotiations. So that goes without 
saying.
    With respect to whether an agreement that is not legally 
binding has meaning, look, there is a long-standing practice in 
the United States to do all manner of agreements, sometimes 
quite sensitive, sometimes quite high profile via executive 
agreements or nonlegally binding arrangements. And it is the 
practice of both sides of the aisle to respect what has 
happened and to abide by the political commitments that are 
made by previous administrations. That is true whether the 
previous administration was a Republican one being succeeded by 
a Democratic one or vice versa. So I think that that practice 
certainly should continue.
    But whether you are talking about the Atlantic Charter or 
the Helsinki Accords or any number of nuclear arrangements, the 
notion of agreements being entered into in some form other than 
advice and consent is actually quite common.
    Senator Barrasso. When you talk about Congress being 
briefed, there is a difference between that and being 
consulted. I think both of us on both sides of the aisle would 
agree that over the years with different administrations, there 
is a huge difference between being briefed and being consulted.
    You know, if the President signs onto this Paris agreement 
at the end of this year and then the courts rule that the Clean 
Power Plan is illegal, will the United States be able to reach 
the goal of its intended nationally determined contribution, or 
its INDC? So I am trying to figure out how we resolve an 
international commitment that is dependent upon the 
implementation of an unauthorized regulatory action like the 
Clean Power Plan, which a court may rule to be illegal.
    Mr. Stern. Well, Mr. Chairman, we have a good deal of 
confidence that the Clean Power Plan is very solidly grounded 
in law and grounded, in the first instance, in Supreme Court 
law. We know that there will be legal challenges. There is 
never a significant EPA regulation where there are not 
significant challenges. And I am not going to speculate about 
what would happen in a situation that we do not contemplate.
    Senator Barrasso. My final question--and then I will turn 
to my colleagues.
    You know, in November 2014, President Obama pledged $3 
billion for a brand new Green Climate Fund. It was a unilateral 
decision by the President without the buy-in or the support 
from Congress. International climate change funding may be the 
top priority for the President, but I will tell you it is not 
the top priority for the American public. And our Nation is 
facing a very tight budget environment. We need to focus 
current scarce resources on the increasing need for 
humanitarian assistance, democracy promotion, embassy security 
measures, countering global terrorist threats.
    So will other countries back out of the negotiations 
without the administration paying these U.S. taxpayer dollars 
in the form of climate reparations?
    Mr. Stern. Well, let me make a few comments about that. On 
the subject of climate reparations, I might just call your 
attention to the opening press conference in Kyoto--I mean, in 
Copenhagen in 2009 where I was asked whether the United States 
would be supportive of that in particular, and I answered very 
emphatically that we rejected the idea.
    But let me get back to the broader question on the Green 
Climate Fund. First of all, I think that this honestly should 
not be a partisan issue. The Green Climate Fund is, in essence, 
a successor of the Clean Investment Funds that President Bush 
started in 2008. President Bush committed to $2 billion over 3 
years. We have put forward a pledge of $3 billion over 4 
years--7 years later. That is very consistent in quality and in 
quantity.
    I think that President Bush saw this kind of assistance to 
developing countries to do real stuff. What the Climate 
Investment Funds have done has been to build clean energy 
infrastructure in developing countries. And I think that they 
concluded that it would be good politics, good diplomacy, and 
good economics, and we agree. The Green Climate Fund is a kind 
of successor to that. So I do not think that we are off on some 
odd toot doing this. I think this is a solid and responsible 
thing to do.
    And I would also say that we do not see assistance to 
developing countries, with respect to climate change, as being 
any kind of an either or as between the investments that should 
be made in the United States and what should be done abroad. It 
is part of a long bipartisan tradition that foreign assistance 
is provided to help prevent instability and protect national 
security and expand market access. On the climate front, I 
think it does all of those things, as well as also shoring up 
food security and health and poverty reduction and the like. So 
I think all of these things are in the U.S.'s interests 
diplomatically and economically as well.
    The last thing I would say is that the amount that the 
United States has put forward--you hear $100 billion and you 
think a huge number. The amount that the United States has put 
forward both from appropriated funds and from funds that OPIC 
has provided over the last number of years has been in the 
range of about $2.5 billion. And the overall $100 billion comes 
from a whole lot of different sources, the World Bank, the 
multilateral development banks, development finance 
institutions all around the world, public, private, and so 
forth. And a recent report was issued by the OECD which 
indicated that we are so far at about $62 billion based on 2014 
numbers, and with additional pledges that were made by France, 
Germany, U.K., and some of the multilateral development banks 
indicated that we are probably on the way well into the 1980s 
already with the United States amount being what I told you. So 
I do not think this is a huge problem.
    Senator Barrasso. Thank you, Mr. Stern.
    Senator Udall.
    Senator Udall. I would yield my time to Senator Boxer.
    Senator Boxer. Thank you, Senator.
    And, Mr. Chairman, here we are again. We now have two 
different venues where we can argue about climate change. 
[Laughter.]
    Senator Boxer. And always very pleasant. We are friends. 
But here we go.
    I continue to be perplexed by those who wish to obstruct 
action to reduce carbon pollution. Some are deniers, and we 
have been through this before. They say they are not 
scientists, and I would agree with that. They ought to be 
listening to the 97-98 percent of scientists who tell us human 
action and activities is causing too much carbon pollution. And 
some just do not seem to grasp the incredible advantages that 
we have in moving toward clean energy. And I am not going to go 
into it because we are not in the Environment and Public Works 
Committee. It is not about public health.
    But it is so clear that when we do this, we also create a 
tremendous number of jobs that cannot be exported out of this 
country. You know, you would have to have very long arms to 
have someone in China putting on a solar rooftop. The fact is 
these are good paying jobs, and the proof is in the pudding in 
our State which is on path to cut its emissions--by the way, it 
is California--on a path to cut emissions 80 percent by 2050. 
During the first year and a half of California's cap and trade 
program, the State added--listen to this--491,000 jobs, a 
growth of 3.3 percent. And we have the 10th-cheapest 
electricity costs in the Nation.
    So I mean, it is the right thing to do. America has always 
been a leader on every issue. And I agree with you, Mr. Stern, 
this is not an option because we need to lead on this. And to 
say let us wait until China leads, I am not waiting for China 
to lead on anything frankly. So I have much more faith in our 
systems here and our commitments here to the right thing.
    I want to thank you for your work on this. I have had the 
opportunity to talk with you several times. I think that our 
resolve that is going on here has brought others to the table. 
Paris offers an important opportunity to reach global 
agreements. And you know, my own view is that the reason we 
have been able to make so many strides, even with the 
obstruction in the Congress--Congress is the only place that 
does not seem to want to do something, it seems--is because of 
the Clean Air Act, the Supreme Court upholding the fact that, 
yes, carbon emissions are covered, and the President of the 
United States who is taking jabs every single day and still 
understands this question.
    So I want to talk to you about developing countries because 
it is always a problem. People say, oh, are developing 
countries doing anything? Are developing countries submitting 
the INDC's with firm commitments to reduce carbon pollution?
    Mr. Stern. Senator, first of all, I just want to thank you 
for your consistent leadership on this issue this year and 
throughout the years. So I appreciate that very, very much.
    Yes, developing countries are submitting INDCs to limit 
their and cut their greenhouse gas emissions. We have 152 total 
INDCs that have been submitted. I believe it is around 110 or 
112 from developing countries, which is an extraordinary thing 
as compared to the history that we have come from.
    Senator Boxer. Let me follow that up. I know that 
developing countries--Mexico and South Korea are considered 
developing countries, and I know that they have made 
significant pledges to reduce carbon pollution. Can you explain 
why these countries see it in their self-interest to reduce 
carbon pollution?
    Mr. Stern. Sure. Senator, I think that it is for a few 
reasons. First of all, people all over the world see climate 
change as a serious threat. I mean, it is having impacts all 
over the world, whether it is in the form of droughts or floods 
or huge storms, stress on their water supplies, fires, just a 
whole panoply of issues, and countries see that. So that is one 
thing.
    The second thing is the international negotiation actually 
is also a very useful tool to bring countries into a place of 
wanting to take action and of wanting to take ambitious action, 
maybe even more so than they would have thought at the 
beginning.
    Senator Boxer. So you think they see the damage that can be 
done.
    There is a movie out called--it is a really old movie--
``Climate Refugees.'' And it was a documentary that was done, 
and I saw it. I will tell you, Mr. Chairman, it is just 
stunning to see already some of the island nations that are 
essentially losing--people are losing their homes, losing the 
place of their birth and for generations.
    Mr. Stern, some have criticized China's 2030 carbon 
pollution pledge, claiming it means the country does not have 
to do anything for 15 years. Do you agree with that?
    Mr. Stern. No, I emphatically do not agree with it. The 
targets that China agreed to with President Obama in the joint 
announcement last year are quite significant targets. First of 
all, they agreed to peak in 2030 or earlier, and they also 
agreed--a very important second piece of this is to get 20 
percent of their energy mix from nonfossil sources. That is a 
pledge which is going to require them to build in the order of 
900 gigawatts of renewable energy, nonfossil energy, between 
now and 2030. Compare that to the fact that the entire United 
States system is 1,100. So they have agreed to build 900 
nonfossil. So they have got to start now. They cannot 
possibly--you cannot turn an ocean liner around on a dime. They 
have got to do big things. They have to start now, and they are 
going to do that.
    Senator Boxer. Thank you, Mr. Chairman. And thank you, 
Senator Udall, for your generosity, and thank you, Mr. Stern.
    Senator Barrasso. Thank you, Senator Boxer.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Stern, did the United States join the U.N. Framework 
Convention on Climate Change in 1992 after the Senate ratified 
that treaty?
    Mr. Stern. Yes, Senator.
    Senator Markey. Are you negotiating this agreement under 
that framework?
    Mr. Stern. We are, Senator, explicitly so.
    Senator Markey. So there is an existing treaty. You are 
negotiating under that treaty which is an authority which 
Congress gave to you. And I just think we should make that 
clear. You are not in violation of any historical precedents. 
It is something that we want you to do, and it is something 
that the Congress passed. This Foreign Relations Committee had 
to pass it first.
    Now, what I hear in the voices of those who object to this 
agreement is this, that we may not meet those goals. But, of 
course, that is a very pessimistic way of viewing what is 
unfolding here in the United States. We are going to pledge 
that we will reduce our greenhouse gases by 26 to 28 percent by 
the year 2025. We are on pace right now to reduce our 
greenhouse gases by 17 percent by the year 2020. So we are well 
on our way toward this goal of 26 to 28 percent.
    Now, the hypothesis that the chairman is making is that you 
cannot rely upon Congress or you cannot rely upon America to 
uphold its commitment. So to the extent to which the President 
has propounded a new law, the Clean Power Plan rule, that will 
reduce greenhouse gases by 32 percent by the year 2030 in our 
utility sector, there is no question that the chairman and 
others in the Senate and the House--they can try to overturn 
that. But right now, it is the law of the United States, and 
the President is making a commitment based upon that law. It is 
on the books.
    Secondly, the President propounded a new fuel economy 
standard for the vehicles which we drive which hits 54.5 miles 
per gallon by the year 2025. It is the law in the United 
States. Now, it is not going to stop members of this panel or 
the Senate from trying to overturn the law, but the President 
is making this commitment to the world based upon the law. We 
only installed 70 megawatts of solar in the United States in 
2005. Last year, we installed 7,000 megawatts, not 70. And 
between 2015 and 2016, we are going to install 20,000 new 
megawatts of solar. The price is collapsing. The same thing is 
true for wind.
    And so what we now have is 6 percent of all electricity 
coming from wind and solar in the United States. In 2005, it 
was 1 percent. We keep on this pathway and we keep the State 
renewable electricity standards on the books, we keep the tax 
breaks on the books as law, we will be at 15 to 20 percent 
renewable electricity by the year 2025 unless people work hard 
to repeal the law that the President is operating under.
    So the chairman is right. There is always within a 
constitutional system an ability to overturn what is existing 
law, but there is nothing the President is doing which is not 
consistent with the law which we have, and if those laws stay 
on the books, this goal will be met.
    So there are climate deniers. There are those that 
obviously do not want to see this goal met. That would be 
principally the fossil fuel industry. But under existing laws, 
the President is making a commitment which is completely and 
totally achievable and legal.
    Now, I think it is interesting for us to then move to what 
is the assessment which the Chinese or the Indians have made 
with regard to this commitment made by the United States. So it 
is my understanding that 2 weeks ago, 3 weeks ago when the 
Chinese President was in town, that he committed to installing 
as much clean energy, renewable energy, by the year 2030 as all 
of the existing electricity capacity in the United States today 
combined. Now, that is a response. And then in return, the 
Indians then had to respond to the United States and China, and 
they made a very huge commitment.
    Can you talk about that and the impact which the United 
States is having as the leader in showing that you can do it in 
terms of the unleashing of new technology around the world, 
especially in those countries that historically people who were 
most concerned about that were not, in fact, meeting their 
obligations, countries like China and India and others?
    Mr. Stern. Thank you very much, Senator. And again, thank 
you very much for your historic leadership on this issue. I 
have known you for a long time, and it has been tremendously 
impressive.
    The U.S. role, what the President has been leading this 
administration on, has had tremendous impact I think with 
respect to other countries. And China--the agreement that you 
cited dates to the joint announcement from last year and then 
again reaffirmed and extended by the joint statement this year. 
Hugely important. In India, Prime Minister Modi has made a 
pledge to build 175 gigawatts of renewable energy. That is a 
gargantuan amount for India, and to do it by 2022. It is 100 
from solar, 60 from wind, and 15 from other renewable sources. 
So a tremendous amount.
    Senator Markey. To put it another way, that would be equal 
to the entire installed nuclear energy capacity in the United 
States today, and they are going to do that in renewables.
    Mr. Stern. Right.
    And I think that you see countries, whether it is Brazil or 
Mexico or others, also inspired by what the United States is 
doing. So I think it has had a very, very important impact.
    Senator Markey. Thank you. And I just want to thank you. 
Your work is going to go down in history. Paris is, I think, on 
track to be a big success, and much of it is due to the 
incredible skill and leadership that you have brought to it. 
Thank you.
    Senator Barrasso. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    You know, there are a lot of scary moments when you are a 
new parent, you know, the first trip to the ER, the first day 
of school. But for me, I ranked up there as one of the scariest 
moments as a young parent the day that I learned that the 
Waxman-Markey bill, which had passed the House of 
Representatives, was not going to be called up for a debate in 
the Senate, thus effectively ending for the time being 
Congress' participation in this exercise that, as I think 
Senator Boxer pointed out, everyone else in the world has been 
engaged in in the private and public sector. The idea that the 
body that I sat in was not going to do anything about the fact 
that by the end of the century at a moment when I hope that 
either or both my 3-year-old and 7-year-old are still going to 
be on this earth, the global temperatures are going to be 6 to 
10 degrees higher. Sea levels will be 7 to 23 inches higher. 
There could be as many as million species which are on the 
planet today when they are 3 and 7 that will not be on the 
planet in their final days of life. That was a scary day.
    But I guess I took some solace because the primary argument 
that I heard from opponents of the United States--Congress's 
unilateral action was that we should not move forward on 
something that is as ambitious as Waxman-Markey in the absence 
of serious commitments from developing nations. It was in part 
an invitation for this vexing, catastrophic global problem to 
be solved at the Paris negotiating table. And now it seems as 
if opponents are back to the same old game doing everything 
they can to try to undermine these negotiations as well.
    And so I am so grateful for your work and your team's work, 
and I think you have done an amazing job to set the platform 
for success. But I remain as scared as I was back in those 
fateful days of 2009 and 2010.
    Mr. Stern, I wanted just to talk to you about what 
yardsticks we should use to measure the success of the talks. 
The President has been pretty open already that we probably are 
not going to be able to get enough commitments, binding or 
nonbinding, in order to hit that 2 degrees Celsius mark that 
has been our standard in many of our conversations over the 
last few years. What should we use as a measurement of whether 
these talks have been successful if it is not the 2 degrees 
Celsius number?
    Mr. Stern. Thank you very much, Senator. Well, I would say 
two things.
    First of all, as a broad structural comment, it will be 
enormously important for us to achieve an agreement that is 
ambitious and durable, transparent, that moves beyond the old 
firewall that we have been talking about between developed and 
developing countries, that elevates the importance of 
adaptation and resilience, which I think this agreement is 
going to do, and that in general advances us toward the global 
transition to low carbon and resilient economies.
    With respect to the specific of 2 degrees, I would say 
this. I agree with what the President has said. We are not 
going to be all the way there yet. But two things to keep in 
mind.
    First of all, according to one of the most reliable 
analysts of where we stand with respect to the temperature 
goals, the Climate Action Tracker, they came out recently with 
an analysis that says as compared to last year--you would sort 
of go back 1 year. Their assessment was we were on track for 
3.5 or 3.6 degrees. Now on the basis of the INDCs, the targets 
that have been put forward now, their new number just this 
month is 2.7. 2.7 is not 2, but that is a powerful move in the 
right direction, more than halfway in the right direction. So 
that is step one.
    The second point is we are looking at ambition essentially 
as a five-part package.
    The first is the initial INDC's need to be as strong as 
possible. And I just referenced how the Climate Tracker looked 
at them.
    Second, we have argued that the agreement has to include 
successive periods to update and strengthen and ratchet up 
ambition over time. We would like to see those every 5 years. 
That is still a matter of negotiation, but it is important that 
successive rounds be included.
    Third, we have supported a proposal that calls on countries 
to put forward what we might call white papers, not 
commitments, but an outline, a strategy on how you would reach 
a deeper level of reductions by mid-century.
    And then fourth, a long-term goal by the end of the 
century, the course of the century for deep decarbonization.
    And then the fifth element is the nonstate actor arena, 
which the French have been quite correctly, and we also, 
pushing, that involves actions by states, by cities, by 
companies and also collaborative action among countries. All of 
those things are what the French are referring to as pillar 
four, but basically it is nonstate actor activity.
    If you put all of those together, that is a package that is 
I think the best answer we can give for ambition, not as far as 
we want to get but a big, big step already, and then these 
other elements.
    Senator Murphy. Mr. Chairman, I really thank you for having 
this hearing today. I just want to make one final comment, 
which is to build on another by Senator Markey about the 
commitments in law that have already been made at the Federal 
level. I also note that there are a lot of commitments in law 
being made at the State and regional level as well that are 
serious and have enough history behind them to tell us what 
happens when you make a real commitment to reducing carbon.
    Connecticut is part of the regional greenhouse gas trading 
program called RGGI. We have been in this for long enough to 
have some really good data as to what it means when you make a 
commitment to reduce carbon. It is pretty miraculous what has 
happened since we have entered into this regional agreement. We 
have cut carbon emissions from 133 million tons down to 86 
million tons. Right? That is a 30 percent thereabouts reduction 
in carbon.
    But here is the real story. Independent economic analysis 
shows that during that same time, because of that investment in 
clean energy, we added 1,400 new jobs to the region during that 
period of time and, maybe most impressively, reduced the costs 
of electricity and heating for consumers by $460 million. Why? 
Because we took the vast majority of that money and put it 
right back into energy efficiency. So we helped individuals use 
less, find more cost-effective means of heating their homes and 
providing electricity. We got a triple whammy. We created jobs. 
We reduced costs and we reduced carbon. And this is not guess 
work any longer. I mean, it just is not theoretical. I mean, we 
are doing it in the Northeast. We have the practical results to 
show what happens when you make these commitments.
    Thank you very much, Mr. Chairman. Thank you, Mr. Stern.
    Senator Barrasso. Thank you, Senator Murphy.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thank you to Mr. 
Stern for your testimony.
    My understanding is that there is an independent report out 
from the OECD about the compliance with goals set out in 
Copenhagen in 2009 and that the report indicates that the 
developed world is well on its way toward meeting those 
obligations. Do you read the report the same way?
    Mr. Stern. Thanks very much, Senator. And, yes, I do. The 
specific focus of that OECD report is on the joint donor pledge 
to mobilize $100 billion a year from all sources, public, 
private, carbon markets, et cetera by 2020, and the OECD report 
showed based on not even all the information yet, but based on 
most information they have, that we are at about $62 billion as 
of 2014. Probably a few billion more will be added when they 
get everything counted. And then on top of that, there have 
been some new pledges made by the U.K., France, Germany, the 
Asian Development Bank, the World Bank which, totaled all 
together, will probably add perhaps $20 billion more on top of 
that over the course of the next few years.
    So if you think about this as a 2020 pledge, we are 
probably at least in the mid-1980s based on where we can see 
things right now and maybe even more than that, and there are 
still 6 years to go. So that was actually quite encouraging.
    Senator Kaine. That bodes well.
    In addition to the climate finance goals of the developed 
nations, Copenhagen involved the United States making 
commitments as well. Talk about how the United States has 
achieved its own--on its own path toward the emissions goals 
that we embraced in Copenhagen.
    Mr. Stern. Sure. Thank you, Senator.
    Well, we are doing quite well. The President has put in 
place a whole raft of actions under the Climate Action Plan 
that he announced in 2013, and some of those actually predated 
that. The fuel economy standards Senator Markey referred to 
earlier were at the time referred to--I still recall from an 
environmental activist, often a critic of the administration 
actually--said that that action back then was the single 
biggest action taken to reduce greenhouse gas emissions that 
any country had ever taken. So that was in the first term.
    And now, of course, you have got the Clean Power Plan. You 
have got heavy-duty vehicle standards. You have probably more 
than two dozen, somewhere between two and three dozen appliance 
standards that the Department of Energy has issued, all the 
building and the appliances and equipment that run buildings. 
We have a methane strategy, which includes mandatory methane 
actions to make some significant reductions of methane in the 
oil and gas and landfill sectors. We have taken a number of 
actions with respect to the industrial gases, HFC's, under EPA 
authority and are also trying to negotiate a broader amendment 
to phase down the use of HFC's globally. That comes under the 
Montreal Protocol, a different treaty.
    So the President is acting across the board both in service 
of meeting that 17-percent target and also to set us up for 
being able to meet the 2025 target, both.
    Senator Kaine. You have been involved in this process since 
2009. My understanding is that there are about 150 pre-Paris 
climate pledges that have been made. How does that level of 
pledge before the meeting compare to kind of past meetings?
    Mr. Stern. Well, it is extraordinary, Senator. And I should 
say that this is in part a result of structures that we 
proposed and got a great deal of support for. So the basic 
underpinning is that we proposed that the structure of this new 
agreement was going to have to be nationally determined 
commitments.
    Senator Kaine. Top down?
    Mr. Stern. You could not be top down. And we also proposed 
that countries put forward these commitments early, not at the 
11th hour in Paris, but put them out there in the sunlight, 
have countries know that they were going to be scrutinized by 
other countries, by the press, by----
    Senator Kaine. A little bit of competition.
    Mr. Stern. Exactly so that the countries care about how 
they are going to look.
    So the result of those proposals is that you have had this 
drum beat of submissions. There are now 152 so-called INDCs, 
intended nationally determined contributions, targets in brief, 
and there has never been anything like that before. You go back 
to Kyoto. There was no expectation, not only no expectation, 
developing countries flatly were not expected to do anything. 
And even if you go back to 2009 at Copenhagen a number of 
developing countries came forward but, A, after the fact in 
most cases and, B, it was about 40 or 45 developing countries 
at that time. We have about 110 developing countries right now 
and all of the developed countries.
    Senator Kaine. The last question I want to ask you is 
about--you mentioned the Clean Power Plan. I support the 
President's plan. I have spent a lot of time digging into its 
effect on Virginia. The Virginia government and the Governor 
and others are strongly in support of it.
    And the reason I like it--and I want you to analogize this 
to what we would hope to see coming out of Paris--is the Clean 
Power Plan. It is not one-size-fits-all. So States are kind of 
are treated differently depending upon where they start from, 
what their particular mix of fuel production is. So, first, the 
goals are not one-size-fits-all, which is important. And then 
second, how a State chooses to meet its goals are also flexible 
to enable local initiative and creativity in kind of deciding 
how to meet the goals. So to me, those two features of the 
Clean Power Plan are really salutary. Analogize that to what 
you hope to see come out of Paris.
    Mr. Stern. Well, I think it is right on point really, 
Senator, because the whole idea of a nationally determined 
contribution, in the lingo of the negotiations, is that each 
country is going to have to decide based on its own 
circumstances, its own capabilities, hopefully with as much 
salutary pressure as possible to do your best, but each country 
is going to have to make the decision about exactly what to do 
and how to do it. By the way, that goes for developed 
countries, as well as developing, but even more important for 
developing countries who we were trying to reassure that they 
can take on the fight for climate change without imperiling 
their own priorities for development and growth and the 
eradication of poverty. So that flexibility is absolutely 
essential and is really, in some sense, the core of our 
approach.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you very much, Senator Kaine.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    And thank you, Mr. Stern, for your testimony, for your 
leadership, for your hard work and your creativity in pursuing 
such an important global goal.
    Let me just start where Senator Kaine was pursuing a 
conversation about some of the limitations of previous 
agreements and how this hoped-for agreement in Paris will 
succeed where others had some challenges.
    As you just said, Kyoto really did not envision a 
comparable framework for developed and developing countries. 
And at the United Nations last month, the new Sustainable 
Development Goals were announced and adopted. SDG 13 calls for 
all nations to take urgent action to combat climate change and 
its impacts.
    So talk to me about how we will incentivize developing 
countries to take ownership of sustainable development 
initiatives. I think the agreement with China and the 
trajectory we have going into Paris with China is very 
encouraging. But tell me how you think we will incentivize 
development and how that will make a difference in this round 
of climate negotiations.
    Mr. Stern. Thank you, Senator.
    Well, look, I think that there are a number of ways to 
think about this. One of the areas that we think are important 
in this regard has to do with the whole way in which financial 
assistance is provided. And what we have said is that there 
really needs to be, in essence, a partnership between all 
countries, that there needs to be a shared effort among 
countries so that, yes, many developing countries--not all, but 
many of them do need some assistance, but they also have to 
bring their own action to the table. So if you look at the kind 
of provisions that were in the financing for development 
negotiation that just finished in July, it talked about not 
just the importance of countries in getting some assistance but 
the importance for those countries to mobilize their own 
domestic resources, the importance for those countries to build 
the enabling and investment environments within their countries 
so that there is a pull for investment to come in.
    We have seen this happen in any number of developing 
countries with extraordinarily positive impact. The most recent 
case I like to cite is Nicaragua which decided just a few years 
ago--I think it was around 2010 or so--that the power they were 
getting was too expensive, that they were going to make a move 
by putting in place some regulatory measures that would open 
the door, that they were going to make a move toward renewable 
energy. They have had an explosion of renewable energy in that 
country and well over $1 billion of foreign investment come in 
to build it. And you can see that in Morocco, in Malaysia, in 
the Philippines.
    We need to spread that message and we are trying to spread 
that message to developing countries so that, yes, you can get 
investment, but do not look at this all in the context of 
government grants. That is just a small piece of what should be 
the total. But let us take care of your own situation and let 
us have assistance where needed, technical assistance, to get 
the regulatory environment and such right, and then you can 
bring in much bigger amounts of money by attracting it. I mean, 
that is an important incentive.
    Senator Coons. Let me follow up on that, if I might. We 
have been presented at times with a picture of a competing 
choice between sustained economic development and reducing the 
carbon footprint. Can we curb carbon emissions without having a 
negative impact on economic growth?
    In Africa, for example, where I have focused a lot of my 
work on this committee, can we provide access to electricity 
for millions more people without sacrificing our work to 
improve the trajectory of climate change?
    And if you would, reference the summit that happened at the 
White House yesterday. I was excited to see that more than 80 
companies operating in all 50 States, employing more than 9 
million people, made pledges of their own to take their own 
steps to improve their sustainability, reduce their carbon 
footprint, or increase their investment in sustainable 
financing as part of the lead-up to negotiations. Does the 
private sector agree that we can both improve the trajectory of 
climate change and continue with economic growth?
    Mr. Stern. Thank you, Senator.
    Well, I think absolutely.
    Let me make a quick comment with respect to your question 
about Africa. First of all, the answer has to be yes. You 
cannot expect countries to go backward with respect to their 
own economic development in the service of climate change, but 
the two things can go together. My office started a program, 
together with OPIC, a few years ago called the Africa Clean 
Energy Facility. And through that program, we provided just a 
small amount of money from my office to go with what OPIC can 
do, and there are now, I think, a few dozen projects underway. 
There was a problem of projects not being able to get going 
just for lack of a little bit of seed money at the beginning. 
So those are all projects designed to help provide power but in 
a clean way, and I think really about $20 million from my 
office, joined with OPIC money of about $400 million, we hope 
will get all the way up to about $1 billion of investment.
    I agree with you about the event yesterday at the White 
House. We have been working hard to communicate with, and bring 
in, corporate participation. And I think companies do see this. 
I think we have got 81 companies now who have signed up for 
this particular pledge, but a great, great, great many more in 
the United States and the around the world who see that climate 
change is real and you have got to act on it. I forget if it 
was Senator Udall or Boxer or Markey, but one of our colleagues 
referenced the pledge by 10 of the biggest oil companies in the 
world to support Paris and to support the goal of 2 degrees.
    You know, people who are fact-based fundamentally--it is 
the military, it is the intelligence community, it is CEO's. If 
you are fact-based, you are going to see that action has got to 
get taken.
    Senator Coons. Well, Mr. Stern, in my home State of 
Delaware, I have met with CEOs of businesses and have been 
struck by the steps they have already taken toward reducing 
their carbon footprint and improving the sustainability of 
their operations, and they have achieved bottom-line results 
that matter for their shareholders and their companies, in 
addition to providing a positive public benefit.
    Finally, I am from the State with the lowest mean elevation 
in America. So other states are swampier, but ours is flatter. 
And between natural subsidence and sea level rise, we are 
seeing significant loss of coastal habitat. I think virtually 
every American coastal State is seeing the impact of climate 
change faster. But there are island nations which I think are 
even more at risk than we are.
    Just in closing, if you would give a comment, big picture, 
why does it matter to States like mine that we make progress in 
Paris?
    Mr. Stern. It matters enormously. I heard John Holdren, my 
friend and colleague at the White House, yesterday talking 
about what we could face if we do not do the right thing. And 
it could be many feet--many feet--of sea level rise by the end 
of this century.
    Paris is important because there is action that is 
important at all different levels. You need action at the 
local, the State level, the national level. You need action in 
civil society and among governments, but it is enormously 
important for all of those areas and the private sector, of 
course, to get a signal that the leaders of the world get it, 
that the countries of the world are taking action together, 
that countries have the confidence that they can act because 
they see that their competitors and their partners are also 
doing it. I mean, as people say, we have for years said, well, 
how are we supposed to act if China and others are not. Well, 
that is part of what an international agreement is supposed to 
do, to give confidence to countries to act and to send a signal 
to everybody below the level of the international level that 
what they are doing is in the right direction and to spur and 
accelerate the action that would otherwise be taken.
    Senator Coons. Thank you, Mr. Stern.
    Senator Barrasso. Thank you, Senator Coons.
    Senator Udall.
    Senator Udall. Thank you, Chairman Barrasso.
    One of the things I think, Mr. Stern, that I am really 
impressed with that you have done is gone and tried to learn 
from Kyoto. You have tried to take in account what Republicans 
and Democrats said as a result of Kyoto. One of the big 
concerns for many Republicans has been that there should not be 
an international agreement that imposes climate action on the 
United States beyond what the United States already plans, 
beyond what we have in law. Do you expect the Paris agreement 
will obligate the United States to meet an emissions target 
that goes beyond what the United States has already pledged?
    Mr. Stern. No, I do not, Senator.
    Senator Udall. And another big ask from Republicans has 
been that enforcement should not be left up to the United 
Nations, that black helicopters should not pounce on the United 
States if commitments are not met. Do you expect the Paris 
agreement will include compliance penalties, sanctions, or 
other external enforcement on the United States? And I think 
the key word there is ``other external enforcement on the 
United States.''
    Mr. Stern. No, that is not part of the discussion. No.
    Senator Udall. And Republicans have long decried any 
international agreements on climate change that do not conclude 
meaningful action on climate change from developing countries. 
Do you envision the Paris agreement will include meaningful 
commitments from developing countries?
    Mr. Stern. Absolutely.
    Senator Udall. And since I think you are at about--the 
estimate now is about 150 countries. So obviously there are 
many developing countries. In your opinion, is it a significant 
commitment that these developing countries are making in terms 
of trying to tackle this difficult, difficult issue?
    Mr. Stern. Yes, Senator.
    Senator Udall. So my opinion is that you have been very 
responsive and tried to pull people together and looking at 
what happened the last time around and coming up with something 
that is very solid. And I thank you for that.
    Now, I mentioned earlier about business support, and we are 
seeing an outpouring of support among business leaders from all 
sectors of the economy for a strong agreement.
    And, Mr. Chairman, I would like to put in the record here--
this is an ``In Support of Paris Agreement'' letter from major 
companies, with your permission, Mr. Chairman, and consent.
    Senator Barrasso. Without objection, yes.

[Editor's note.--The Paris agreement letter mentioned above can 
be found in the ``Additional Material Submitted for the 
Record'' section at the end of this hearing.]

    Senator Udall. They say, ``A new climate agreement in Paris 
can help strengthen the role of, and minimize risks to, the 
private sector in a number of ways. And this is just one little 
part here. ``Providing Long-Term Direction.'' I think that is 
absolutely crucial. ``An aim of progressively decarbonizing the 
global economy can provide a clearer signal to markets to shift 
long-term investments toward energy efficiency and other lower 
carbon alternatives.''
    Now, this letter, Mr. Stern, signed by companies we all 
know--these are major companies, Alcoa, BHP Billiton, which is 
a company that has been in New Mexico, BP itself, Intel, PG&E, 
Rio Tinto, Shell, Siemens Corporation. So these are major 
corporations that have stepped forward and said this would be 
very helpful.
    Now, recently CEO's of the top U.S.-branded food companies 
like General Mills, Kellogg, Nestle, and others called on 
political leaders to take decisive actions toward--and this is 
their quote--``clear, achievable, measurable, and enforceable 
science-based targets for carbon emission reductions.''
    And major companies are calling for action from some of our 
political leaders to continue the strong climate action and 
that strong climate action is a threat to economic well-being.
    Have you been engaging directly with business leaders in 
this process? Why did these companies say that we need a robust 
agreement in Paris, and why do they think they will continue to 
thrive as all the world's countries take action?
    Mr. Stern. Yes, Senator, I have been engaging with 
business, and the White House has been particularly active in 
this regard as well, I should say, as has Secretary Kerry.
    Look, I think, again, business leaders live in a fact-based 
world. It is not a matter of ideology. They can look at what is 
happening. You can look at both the theory and the evidence of 
what is happening with respect to climate change. And I think 
that it is useful, in the eyes of many, to start to put 
together a regime that is predictable and understandable and 
points, as you said, in the direction in a long-term way to 
give guidance to the sorts of things that they need to do.
    I think, again, business likes facts and businesses like 
predictability. So obviously, this is not universal. There are 
some businesses who do not agree, but more and more you see 
this kind of thing that businesses support action. They can see 
that we are in big trouble if we do not act, and it is better 
to act now.
    My understanding, from numbers that I have seen recently, 
is for every decade we wait, the cost of taking action goes up 
by about 40 percent. So it is better to get going.
    Senator Udall. Those estimates you are talking about are in 
the billions and trillions when you are talking about estimates 
going up. Right?
    Mr. Stern. Yes, yes.
    Senator Udall. Thank you, Mr. Chairman. I appreciate it.
    Senator Barrasso. Thank you very much, Senator Udall.
    Mr. Stern, during a Senate Environment and Public Works 
hearing on July 8, experts testified that even under the best 
of circumstances, it was unclear how the President could make 
good on his pledge to reduce greenhouse gas emissions up to 26 
to 28 percent by 2025.
    So where did this 26 to 28 percent greenhouse gas emission 
reductions come from, and can the United States meet the 
administration's pledge under the current law?
    Mr. Stern. Thank you, Mr. Chairman.
    The number came from analysis of the various authorities 
that we have, authorities that are based on the Clean Air Act, 
the Energy Policy Act, the Energy Independence and Security 
Act, existing authorities that had already been provided by the 
Congress. There was an analysis of completed actions such as 
the fuel economy standards for light- and heavy-duty vehicles, 
the appliance standards that I referred to earlier, building 
codes, and the like. There was an analysis of pending 
rulemakings at the time like the Clean Power Plan, further 
heavy-duty vehicle standards and appliance standards, new 
action being taken on methane and HFC's and so forth, as well 
as the Federal Government's own Executive order to reduce 
greenhouse gases 40 percent below 2005 levels by 2020.
    There are still additional elements of the package that 
include actions by the U.S. Forest Service and others to 
improve essentially what is called the carbon sink provided by 
forests and grasslands. There is a whole set of voluntary 
actions that are being led by the Department of Agriculture 
essentially providing various kinds of incentives to farmers, 
which Secretary Vilsack thinks will produce a reduction of 
about 2 percent by 2025.
    And there are also State policies that are part of the 
equation, and market trends, things like the abundance of low-
cost natural gas which can substitute and has substituted for 
coal in many cases, the decline of renewable energy costs at a 
much more rapid rate than people had anticipated, the 
possibility and indeed the reality increasingly of innovations 
in areas like electric vehicles and advanced manufacturing.
    So looking at all of the totality of CO2-reducing 
activities underway, we determined that 26 to 28 percent was a 
number that made sense and that we could meet on the basis of 
existing authority. And I would point you, by the way, to an 
analysis that was done by one of the most respected 
environmental think tanks, the World Resources Institute, which 
has concluded the same thing, that that target is something 
that can be met on the basis of existing authority.
    Senator Barrasso. You know, it is interesting. The U.S. 
Chamber of Commerce--they did an analysis, and they found about 
a 33-percent gap in getting to this reduction. So these are 
numbers that obviously are going to be discussed.
    I want to get into the China and India concentration and 
the contributions of China and India. The International Energy 
Agency information suggests that China's pledge amounts to a 
little more than business as usual. Before the joint 
announcement, they expected China's emissions to peak around 
2030. The IEA data showed that China's emissions intensity fell 
by 60 percent between 1990 and 2005. Therefore, a pledge to 
reduce intensity 60 percent to 65 percent between 2005 and 2030 
is just a continuation of the existing trend. So not only does 
China get to continue business as usual and increase their 
emissions, the same as the situation in India. ``The 
Economist'' said that the concessions made by the United States 
are more costly and more real than those of China.
    A recent ``Economist'' article stated that India's Prime 
Minister, ``has set a target of expanding GDP by 8 percent a 
year.'' If it comes close to meeting that target, emissions 
will soar just as China's has done. The article went on to say 
with economic growth at 8 to 9 percent, India's total emissions 
of carbon dioxide would triple--triple--by 2030 from 1.7 
billion tons in 2010 to 5.3 billion tons. India is on its way 
to becoming the biggest contributor to increases in greenhouse 
gases within 15 years. India's intended nationally determined 
contribution did not set a peak date for emissions. They are 
going to continue to go up.
    So considering China's and India's intended nationally 
determined contributions, will their greenhouse gas emissions 
be higher or lower than they are today?
    Mr. Stern. Thank you, Mr. Chairman. So let me take China 
and India one at a time.
    Senator Barrasso. Because it gets to the issue of will this 
slowing the growth of global temperatures going to be achieved 
at all if all of these major emitters are given a waiver 
allowing them to continue to have higher emissions 15 years 
from now than they have today----
    Mr. Stern. Right.
    Senator Barrasso [continuing]. In spite of what the United 
States may or may not do.
    Mr. Stern. Right. We do not actually agree with that 
characterization at all, that there is any sort of waiver. I 
mean, what we see from China is the first-ever agreement to 
peak its emissions, which is a crucial step on the way to 
getting them to go down. We see that 20-percent promise to get 
20 percent of their energy from nonfossil sources to be, again, 
as Senator Markey has said as well, an enormous pledge. They 
are going to need to build 900 gigawatts of nonfossil energy 
between now and 2030. That compares to the total electricity 
use of the United States and is more than all the coal used in 
China today. So that is a huge, huge undertaking, and it will 
constrain what China is able to do in terms of their emissions.
    They have also agreed to a 60-to-65 percent improvement in 
the carbon intensity of their economy by 2030.
    So I think that what you will see with respect to the China 
INDC is that it is quite solid. The Climate Tracker that I 
referenced earlier assesses China to be a quite solid INDC.
    I think the strongest part of the Indian pledge is to get 
40 percent of their energy from nonfossil sources--40 percent 
of their electric power from nonfossil sources by 2030. And 
part of that is their pledge to build 175 gigawatts of 
renewable energy, which for an economy the size of India, is a 
vast undertaking.
    Look, I am not here to defend every element of every 
country's INDC. Some are stronger than others. I think that the 
40 percent nonfossil pledge for India is stronger than India's 
carbon intensity pledge, for example, but that is a quite 
significant undertaking that India has proposed.
    Senator Barrasso. But you agree the total numbers are going 
up. The amount of emissions, in spite of what percentage is 
coming from the renewables--the numbers are still going to go 
up over the next 15 years in spite of the fact that the United 
States have been coming down over the last 12 years.
    Mr. Stern. Well, Senator, if I may. The numbers are going 
down as compared to what the numbers would otherwise be doing. 
I mean, if you are--no, but if----
    Senator Barrasso. The numbers are going up. You cannot 
ignore the fact that they are still going to go up in spite of 
the fact that the United States are going down.
    Mr. Stern. I understand that and I respect that, Mr. 
Chairman. But it is also true that if you are an economy which 
is growing at 8 or 9 percent a year, because that is the stage 
of development you are in, it is pretty hard to say you are 
supposed to slam on the brakes and go negative overnight.
    Senator Barrasso. Well, obviously, there are people in the 
United States who want our economy to come back and move up as 
well.
    You know, the hearing was originally supposed to be a joint 
hearing with the Senate Environment and Public Works Committee. 
It was supposed to be a hearing where all the experts who have 
worked on the President's Clean Power Plan and the targets and 
the climate negotiations would all be in one place to answer 
our questions. I am grateful that you are here today. The full 
committee minority blocked that from happening.
    So it is interesting. When we asked the EPA to testify, 
they insisted that they had no witnesses who could actually 
speak about these issues, which is astonishing given what the 
EPA does and the claims and listening to other members from the 
EPA. And I know you are from the State Department. So I 
appreciate you being here.
    They stated on October 13--so this is just 1 week ago. The 
EPA sent a letter to the Environment and Public Works Committee 
chairman, and the letter says I respectfully continue to assert 
that the agency does not have a witness--it does not have a 
witness--who can speak to the issues that are topics of this 
hearing. It does not have a witness that can speak to the 
topics. This is despite the role the EPA has played in 
developing the bulwark of regulations that will meet any 
potential targets, despite the fact that the EPA Administrator 
has played a role as part of the U.S. delegation to 
International Climate Change conferences in the past, including 
Lisa Jackson attending and delivering remarks at the U.N. 
Copenhagen Climate Change Conference in 2009. Gina McCarthy and 
the EPA have no idea about any of the topics of this hearing. 
Yet, I anticipate that Gina McCarthy, Ms. McCarthy, the head of 
the EPA, will be attending receptions in Paris with 
international bureaucrats and statements touting her 
regulations to anyone who will listen.
    So I am grateful that you are here today. I think it is 
absurd that the head of the EPA would say, oh, no, there is 
nothing that we can add to this.
    So do you know of any plans that the EPA has in joining 
with you as part of the official U.S. delegation to the Paris 
Climate Change Conference? Because apparently they do not have 
anything to do with it or even know anything about it.
    Mr. Stern. Mr. Chairman, I am not aware at the moment of 
who from EPA is coming. There is always an interagency group 
that goes to these COP meetings.
    Senator Barrasso. So you admit that the EPA will be 
represented there in spite of their inability to comment on 
this or attend a hearing like that. You just said you were not 
sure who from the EPA----
    Mr. Stern. Mr. Chairman, I cannot comment on today's 
hearing because I am not----
    Senator Barrasso. I appreciate you being here, but I will 
tell you there are obvious issues of the EPA and their failure 
to be here.
    You know, it is interesting. I did hear some of my 
colleagues on the other side refer to reducing pollution. And I 
have another quote, this from Gina McCarthy, the head of the 
EPA. Now, she testified before the Senate Environment and 
Public Works Committee in July of 2014 at a time when the 
Democrats actually chaired the committee and were in the 
majority in the Senate. And she stated with regard to her 
existing power plant rule, which makes up a major part of the 
President's carbon reduction pledge--she said, quote, ``this is 
not about pollution control.'' But I heard my colleagues here 
talking about this is about pollution. This is Gina McCarthy. 
``This is not about pollution control. It is about increased 
efficiency at our plants. So let us be clear with regard to the 
President's carbon reduction pledge. This is not about reducing 
pollution. According to the EPA, it is something else.''
    Thank you, Mr. Stern.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I think the first thing--and Senator Markey will also be 
able to speak to this because he is on the committee, the 
Environment and Public Works Committee, which has jurisdiction 
over the EPA.
    This has been discussed with the chairman of the committee, 
Chairman Corker, and our ranking member, Ben Cardin. And it was 
agreed that this would be the format. And I really believe we 
have the best witness here to deal with what is going to happen 
in Paris because Mr. Stern started right at the very beginning 
of the Obama administration. He has been on top of everything. 
He has been to all the negotiations. I mean, there could not be 
anybody that is more on top of what is happening on Paris.
    In my understanding, the Environment and Public Works 
Committee has done extensive hearings on the Clean Power Plan 
and things like that.
    And, yes, you said, Mr. Chairman, you are happy to have him 
here today also because I think he is the one that has the real 
facts on what is going on here.
    Mr. Stern, your testimony references the fact that these 
nationally determined structures, you know, these INDC's of the 
Paris climate pledges actually led to countries submitting 
stronger climate pledges. Can you tell us more about the 
benefits of this approach that you are engaging in?
    Mr. Stern. Look, Senator, I think a couple of things. I 
think the fact that we proposed nationally determined 
contributions as a structure allowed countries to get into a 
mode of trying to come forth, figure out what they could do, 
not simply being in a mode of opposition and fear about how 
they were going to be able to manage--so I think that has been 
important.
    I think that when countries see others acting--the most 
important thing that happened to kind of kick this process off, 
if you will, was the joint announcement between President Obama 
and President Xi last November. And there countries could see 
that here you had the two big, classic antagonists, the 
countries that had been seen, if you will, as the leaders of 
the two opposite opposing camps in these negotiations coming 
together and saying this is what we are going to do and making 
significant pledges, both of them. I think that had a big 
impact on countries.
    The United States has worked directly with some countries 
to provide technical assistance and advice on how to put 
forward stronger and stronger contributions, and I am sure that 
has been going on with our colleagues in Europe working with 
other countries as well.
    So I think it is something that has fed on itself in a very 
kind of positive way, and I think, again, the sight, the 
tableau, which was quite stunning to people to see the United 
States and China at the Presidential level standing up and 
making these commitments last year really got this off on a 
good footing.
    Senator Udall. Thank you for that answer.
    And, Mr. Stern, you have overseen this process since 2009. 
Could you contrast the current scale of the pre-COP pledges to 
previous meetings? In particular, how does the number and scale 
of pre-Paris climate change pledges--my understanding, 150 so 
far--compare with the level of effort in past agreements, so 
looking past and present?
    Mr. Stern. Right. Well, if you look back at Copenhagen, 
there really were not any pledges that were made before 
Copenhagen because we had not set forth and secured agreement 
for this kind of structure then. You did have a number of 
countries but a quite small number of countries who had 
essentially put out press releases saying this is what we are 
planning to do, but I think you could have counted those on one 
hand. That was not a large number of countries who did that. So 
it is a completely different ballgame now.
    And it started with the Durban mandate for this 
negotiation, which we were instrumental in developing at the 
end of 2011 where the whole theory of the agreement was that it 
was going to be applicable to all. In other words, it was going 
to be the not-Kyoto. It was not going to be just applicable to 
developed countries. It was going to be everybody. That was the 
starting point, and then, as I say, we have worked through 
these different structural features along the way of nationally 
determined and so forth. I think that has been very important, 
and I think the impact of the China announcement was also quite 
significant.
    Senator Udall. Thank you.
    The 1997 Byrd-Hagel resolution asserted that the United 
States should not join an international climate agreement that, 
A, only imposes obligations on developed countries and, B, 
would result in serious harm to the economy of the United 
States. How would you square the current dialogue with those 
requirements?
    Mr. Stern. Well, I think we have met the Byrd-Hagel 
requirements, frankly. People have referenced how we have 
learned the lessons from Kyoto. It helps when you are actually 
there because I was in Kyoto. I did learn those lessons. But I 
remember the famous add of a scissors and taking a map of the 
world and cutting out all of the developing countries. This was 
in 1997 with regard to Kyoto, cutting out all the developing 
countries because they were not going to have any obligations. 
And that was exactly what that first element of the Byrd-Hagel 
resolution was talking about. So we have just exactly the 
opposite now. We have 152 INDCs, 110, plus developing 
countries. So it is a completely different ballgame, including 
all the big ones.
    With respect to the economy, two things. The fact that this 
is nationally determined means that something is not getting 
imposed on us or anybody else. So it is not the case that we 
should be in a posture and we are not in a posture where what 
we are talking about would hurt the U.S. economy.
    And then there has also been all sorts of detailed, 
voluminous analysis done with respect to the core elements of 
our target, the Clean Power Plan being the most recent one, and 
the analysis that EPA did shows significant cost to be sure but 
netted out against the benefits, I think EPA's estimate was 
somewhere in the $26 billion to $45 billion of net benefits to 
be expected. So this is not going to hurt our economy, and it 
is going to include all other countries.
    Senator Udall. Thank you.
    Senator Barrasso. Thank you, Senator Udall.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    So I think it is important for us to make clear that we 
have begun to break this link between increase in gross 
domestic product and a reduction in greenhouse gases. So in 
Massachusetts, we have reduced our greenhouse gases by 40 
percent since 1990, and our gross domestic product has gone up 
by 70 percent. So it was not inconsistent. Our unemployment 
right now is 4.5 percent. In fact, one of the things that has 
happened in Massachusetts is that having set ourselves out on 
this course, we now have 100,000 people in Massachusetts 
employed in the clean energy sector. It is now one of the top 
10 employers in the State. So this disconnect between 
increasing gross domestic product and reduction in greenhouse 
gases is accelerating in Massachusetts, and it is happening 
across the planet as well.
    In 2014, for the first time ever, the world experienced 
global economic growth without a global carbon pollution 
increase according to the International Energy Agency. So 
business will be critical to extending and building on that 
achievement.
    So what is the signal that you want to send to businesses 
across the planet coming out of Paris, Mr. Stern?
    Mr. Stern. Well, your point, Senator, is exactly right. 
That is the iron link that had to be broken and it is starting 
to be broken. You have to have economic growth up and emissions 
down. I mean, that is the name of the game.
    And I think the signal is, again, we are moving long term 
in a direction to grapple with and successfully tackle climate 
change. And it is a start. It is not a finish, but if you have 
all countries of the world on board to do this, the leaders of 
the countries of the world committing to do that, then again 
you send a signal that this is the long-term trajectory and 
businesses should get essentially on the right side of history, 
not just to be on the right side of history, but to be on the 
right side of their balance sheet.
    Senator Markey. So going back to 2009 when the Waxman-
Markey bill was passed through the House of Representatives, it 
died over here in the Senate. But for a while there people 
thought my first name was ``Waxman,'' as part of the Waxman-
Markey bill. [Laughter.]
    Senator Markey. But it was going to reduce greenhouse gases 
by 80 percent by 2050 and 17 percent by 2020. So those were the 
goals. And it was a radical group of people who signed onto it, 
I mean, a completely radical group. General Electric, General 
Motors, Chrysler, Ford, the Edison Electric Institute endorsed 
the bill. The Nuclear Energy Institute endorsed the bill. 
Company after company all across the country endorsed the bill. 
When you have the big three auto manufacturers and the Edison 
Electric Institute endorsing a bill to reduce greenhouse gases 
by 80 percent by 2050, you are no longer in the radical 
extreme. It is those who oppose it who are in the radical 
extreme.
    You have the world's scientists all saying that there is a 
great danger. And John Holdren is now saying that there is a 
destabilization in the west Antarctic ice covering that if it 
went into the ocean would raise sea levels by 5 feet, that 
there is an increase in destabilization on the Greenland 
icecap, and that is 1,000 miles long and 300 miles wide and 
pretty much two Empire State Buildings high. That would add 
another 7 feet to the sea levels of our planet.
    So the radicals are those who say do not worry. But you 
cannot get a more conservative group than Intel and DuPont and 
Dow and General Electric and General Motors, the Edison 
Electric Institute, Pepsi-Cola. That was 2009. The number of 
companies that have signed on has now doubled since then 
because the science is even more clear. And they know that they 
have a fiduciary responsibility to their shareholders. They 
think they can make money and reduce greenhouse gases 
simultaneously.
    Now, can you tell us a little bit about European 
businessmen or Chinese businessmen? Is that your experience now 
that that has been embraced across the business community as an 
ethic that they believe that they can achieve simultaneously?
    Mr. Stern. I think that that is right, Senator. We have 
this group of 81 companies that have signed onto the pledge 
that we put forth. The French are also putting forth a pledge 
for countries internationally to sign on. I do not know what 
the numbers are yet, if they have totals that they have 
calculated yet. But I think you are going to see a broadened 
business support all over the world for the same kinds of 
things that you are seeing here.
    Senator Markey. Can I just add this as well? This is 
triggering a big technological revolution. In 1993 in the 
United States, if you had a cell phone, it was the size of a 
brick. It cost 50 cents a minute. And Gordon Gekko had one in 
``Wall Street.'' That was it.
    But in 1993, I was the chairman of telecommunications. I 
moved over 200 megahertz of spectrum for the third, fourth, 
fifth, and sixth cell phone license. By the year 1996, everyone 
had this flip phone in their pocket. It was under 10 cents a 
minute. You did not have one in 1993, but you had one in 1996.
    And then a really smart guy came up with the smart phone 
about 7 or 8 years later because we had begun the innovation, a 
computer in a pocket. But first you had to begin this 
revolution.
    And that is where we are now in the energy sector. When you 
go from 70 megawatts of solar in 2005 to 7,000 megawatts being 
installed in the United States in 2014, 20,000 megawatts in 
2015 and 2016 combined, another 20,000 megawatts of wind being 
installed in 2015 and 2016, the revolution just accelerates.
    And by the way, when we developed the technologies, you 
wind up with 600 million people in Africa today with these 
devices in their pockets. They did not have any of them 10 
years ago. We innovated. We led. We showed that we could put in 
place the business incentives to move this technology in a way 
that could solve a problem, and we are going to wind up with 
villages in Africa that have solar panels on their roofs so 
that they can plug in their wireless smart phones and that will 
have been a ``made in the USA'' as our promise to the rest of 
the world that we would be the leader.
    And of all of us, you are the leader in this negotiation, 
Mr. Stern, and we thank you so much.
    Senator Barrasso. Mr. Stern, we appreciate you being here 
today.
    I just want to point out that it was the ranking member of 
the full committee who blocked the effort to hold the joint 
hearing despite a long-standing precedent of joint hearings 
with EPW and the Senate Foreign Relations Committee. I think it 
would have been productive and nice to have all of the players 
joining the discussion, as has been done in the past, and I 
have a list of times when we were able to do that.
    I did have one final question and it has to do with 
references to a treaty. During Senate deliberations on the U.N. 
Framework Convention on Climate Change in 1992--because we 
talked about previous activities--George Herbert Walker Bush in 
his administration--officials testified that in the view of the 
administration, the degree of congressional involvement in U.S. 
adoption of any future protocols to the U.N. Framework 
Convention on Climate Change would depend on the nature of 
those agreements, and that the administration also declared 
that any future agreement containing specific greenhouse gas 
emission targets likely would need to take the form of a treaty 
and be submitted to the Senate for advice and consent to 
ratification. And I can get you everything that was stated.
    So looking at that, does the administration intend to 
respect the commitment made by the executive branch in 1992--I 
know a different administration--to submit any future protocols 
negotiated under this U.N. Framework Convention on Climate 
Change that contains emission targets and timetables to the 
Senate for advice and consent?
    Mr. Stern. Thank you, Mr. Chairman.
    We have looked at that very carefully. And the notion of 
targets and timetables, as that term was used in 1992--that was 
understood by everybody on both sides of the aisle, by 
everybody in the international community as being legally 
binding targets and timetables. That was the nature of what 
that phrase meant, and that was not included for precisely that 
reason in the Framework Convention. So if we were to go forward 
with legally binding targets and timetables, I think that the 
answer would be yes, we would agree with you. If what we do is 
nonlegally binding targets, I think we read that differently 
because we do not believe, based on a good deal of study and 
consultation with people who were part of those negotiations, 
that what was meant was legally binding target and timetables.
    Senator Barrasso. Thank you.
    The hearing is concluded. I appreciate you, Mr. Stern, 
being here, making the time to answer our questions.
    I am going to leave the record open until the close of 
business Friday, October 23, for any members of the committee 
to submit additional written questions or comments for the 
record.
    I appreciate you being here.
    The hearing is adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Written Statement of Senator James M. Inhofe, Chairman, U.S. Senate 
                 Environment and Public Works Committee

    EPA Administrator McCarthy said it best at a Council on Foreign 
Relations group earlier this year, ``Where environment is concerned 
it's hard to know where domestic policy ends and where foreign policy 
begins.'' This certainly sums up the collective role of the State 
Department, the Environmental Protection Agency and the Council on 
Environmental Quality, among other administrative agencies, in 
contributing to the President's international climate efforts and the 
need for Congress to hear from all key administrative officials.
    The Environment and Public Works Committee held an initial hearing 
related to the ongoing international climate negotiations in July 
focusing on the President's international climate pledge, more formally 
referred to as his intended nationally determined contribution (INDC). 
The President's INDC would commit the U.S. to reduce greenhouse gas 
emissions by 26 to 28 percent compared to the 2005 level by 2025, which 
is based primarily on regulatory actions taken under the Clean Air Act. 
The July hearing provided valuable perspective from a diverse group of 
experts, including former Sierra Club General Counsel during the 
Massachusetts v. EPA Supreme Court case and argued that the Clean Air 
Act allowed EPA to regulate carbon dioxide summed up the panels 
overarching agreement that even under the best of circumstances, the 
President's INDC simply does not add up: ``This is arithmetic, it is 
nothing but arithmetic. . . . All I did was take a look at each of 
those measures, take the maximum amount of emissions reductions from 
each of those measures as described either by EPA or by the Department 
of Energy or to the best of my ability . . .'' which ``get[s] us 
between 68, 70, 75 percent of what we need.''
    Former head of EPA Office of Air and Radiation, Jeff Holmstead 
reiterated, ``I don't see how you get to 26 to 28 percent. And I can 
tell you we can't get there by 2025.''
    Such a conclusion, certainly leads to more questions than answers. 
Despite the often heralded claim by the administration that the INDC is 
meant to ``facilitate the clarity, transparency, and understanding'' of 
its commitments, the administration has yet to provide basic 
information, including how the 26 to 28 percent reduction would 
actually be achieved.
    I along with 10 of my colleagues sent a letter to the President in 
early July laying out many of these questions. We have yet to receive a 
response.
    One of the few details the INDC does include is EPA and CEQ's 
expected roles. In fact, the majority of the regulatory actions the 
President relies on to meet the 26 to 28 percent reduction goal is the 
sole responsibility of the EPA, including the so-called Clean Power 
Plan. Executive Order 13693 directly assigns coordination 
responsibility to CEQ to further reduce the federal government's 
greenhouse gas footprint. I find it very hard to believe that agency 
officials who are charged with implementing key components of the INDC 
that forms the platform by which the State Department is negotiating to 
not be involved.
    I would have preferred the joint subcommittee hearing that was 
agreed to over a month ago. There is a long-standing practice between 
the Foreign Relations Committee (SFRC) and the Environment and Public 
Works Committee (EPW) performing oversight of international, 
environmental agreements. One example includes a joint full committee 
hearing between SFRC and EPW on July 24, 2002, with administrative 
witnesses on the implementation of environmental treaties.
    While we can certainly disagree on the underlying policies, I 
believe we, as the Senate, should support basic oversight 
responsibilities, especially when they are consistent with past 
practice. President Obama and his administrative officials are going 
out of their way to circumvent the role of the U.S. Senate in this 
negotiating process and I am disappointed that the minority would 
enable such behavior.
    A closed-door policy is unacceptable when the President is 
attempting to bind this country to long-term commitments that come with 
broad-reaching economic burdens. I will continue to seek answers from 
key agency officials and will reconvene a full EPW committee hearing 
examining the international climate negotiations and the role of 
domestic environmental policies in the coming weeks.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 

  Responses of Todd Stern to Questions Submitted by Senator Rand Paul

    Question. During your testimony you said, ``the costs of inaction 
dwarfs the costs of action''. If you are so certain in the 
quantification of a cost-benefit analysis, can you please provide a 
detailed review of the total direct and indirect costs to the U.S. 
Government, U.S. businesses, and the American citizens of the current 
and proposed commitments of President Obama?

    Answer. While I cannot speak to the breadth and scope of 
rulemakings across agencies, all of the actions taken by the 
administration undergo a rigorous regulatory review, including analysis 
that ensures each action yields strong net benefits.
    For instance, the EPA's proposed Clean Power Plan delivers net 
benefits of $26-45 billion in 2030, including $14-34 billion per year 
from improved public health.
    More specifically, by 2030, emissions of sulfur dioxide from power 
plants will be 90 percent lower compared to 2005 levels, and emissions 
of nitrogen oxides will be 72 percent lower.
    Because these pollutants can create dangerous soot and smog, the 
historically low levels mean we will avoid thousands of premature 
deaths and have thousands fewer asthma attacks and hospitalizations in 
2030 and every year beyond.
    Similarly, measures like appliance efficiency standards and 
building codes create jobs while saving consumers and businesses 
billions of dollars every year on their utility bills. And fuel economy 
standards cut oil dependency and carbon pollution while saving 
consumers billions at the pump.

    Question. When the Senate approved the U.N. Climate Change 
Framework in 1992, it was under the understanding from the executive 
branch (see Executive Report 102-55) that any future protocol or 
amendment to the climate agreement would come to the Senate for advice 
and consent. And in 1997 the Senate expressed that it should give its 
advice and consent to ratification of the Kyoto Protocol to the U.N. 
Climate Change Framework. Will you feel deflated if your hard work on 
the Paris Protocol agreements to the U.N. Climate Change Framework is 
thrown out by a subsequent administration or the U.S. courts should the 
Obama administration not get congressional advice and consent to 
formalize the negotiations?

    Answer. We do not know yet what the specific provisions of the 
Paris agreement will look like, should an agreement be reached. We will 
evaluate the final agreement, including in coordination with the State 
Department's Treaty Office, and whatever the administration does will 
be in accordance with the law.

    Question. How does the administration intend to reach the 26-28 
percent reduction in greenhouse gas emissions from its 2005 level by 
2025 as was submitted in the Intended Nationally Determined 
Contributions (INDC)?

    Answer. This U.S. target is based on the impact of current policies 
(such as fuel economy standards for light-duty vehicles, appliance 
standards, and the Clean Power Plan), the implementation of new and 
expanded policies based on existing executive authorities under 
existing laws that have already been passed by Congress (such as 
forthcoming fuel economy standards for heavy-duty vehicles, additional 
appliance standards, additional measures to address HFCs and methane, 
and efforts to bolster our lands sector carbon sinks), and voluntary 
programs (such as Energy Star and voluntary programs to reduce 
agriculture sector emissions).
    The INDC specifically references important actions that were active 
as of the first quarter of 2015. These included the following 
rulemakings: the Clean Power Plan, heavy-duty vehicle fuel economy 
standards, standards to address methane from landfills as well as 
existing oil and gas operations, the Significant New Alternatives 
Policy (SNAP) program to reduce HFC emissions, and appliance standards.
    The INDC also references Executive Order 13693 that sets a target 
to reduce greenhouse gas emissions from Federal Government operations 
to 40 percent below 2005 levels by 2025.
     There are, however, many important steps to reduce emissions that 
were not specifically listed in the INDC but that were considered in 
setting the target.
    For example, the U.S. Forest Service and other agencies are working 
to bolster the health of our forests and grasslands, and we are pleased 
that the most recent data suggest our overall lands sector carbon sinks 
remain healthy.
    Similarly, USDA is taking steps through a wide-ranging set of 
voluntary programs and initiatives to help agricultural communities cut 
energy waste, invest in renewables, and reduce greenhouse gas 
emissions.
    HUD is working to advance renewables and improve energy efficiency 
in the housing sector including through Property Assessed Clean Energy 
(PACE), their energy efficiency mortgage program, and financial 
incentives in collaboration with DOE's Home Energy Score.
    DOT is working to encourage smart growth development that reduces 
the need for driving and to empower consumers with the information they 
need to choose tires that improve fuel economy.

    Question. During your testimony you said that a draft text exists 
and that it has both legally and nonlegally binding portions. Can you 
please share the current draft text with the committee? And with the 
conference only a month away, have you consulted with the State 
Department's Office of Treaty Affairs on the process to submit the 
agreement to the Senate for advice and consent? Will the administration 
submit legally binding portions to the U.S. Senate for advice and 
consent?

    Answer. We do not know yet what the specific provisions of the 
Paris agreement will look like, should an agreement be reached. We will 
evaluate the final agreement, including in coordination with the State 
Department's Treaty Office, and whatever the administration does will 
be in accordance with the law.
    Draft agreement texts are public documents available on the UNFCCC 
Web site at the following address: unfccc.int/2860.php.

    Question. Who are the expected members of the U.S. delegation to 
the Paris climate conference?

    Answer. As the lead climate negotiator for the United States, Todd 
Stern will lead the delegation to COP-21. Other members of the U.S. 
delegation will include negotiators, attorneys, subject matter experts, 
and support staff, among others.

                                  [all]
</pre></body></html>
